UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

NOV 3 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JASPER CROOK,

No.

Plaintiff-Appellant,
v.
RICARDO AGUILAR; MAPFRE
INSURANCE,

20-55726

D.C.No.
5:20-cv-00914-DMG-KK
Central District of California,
Riverside
ORDER

Defendants-Appellees.
On September 23,2020, the court dismissed this appeal for failure to
prosecute because appellant had not paid the riling and docketing fees or filed a
motion to proceed in forma pauperis. See 9th Cir. R. 42-1.
Appellant now moves to reinstate the appeal, but does not include proof that
the filing mid docketing fees have been paid or a motion to proceed in forma
pauperis. The cpurt therefore does not entertain the pending motion to reinstate
(Docket Entry > o. 6).
This case remains closed.

i

'W

MF/Pro Se

15k A

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Monica Fernandez
Deputy Clerk
Ninth Circuit Rule 27-7

MF/ProSe

2

na„Lna

Case 5:20-cv-00914-DMG-KK Document 10 Filed 05/27/20 Page 1 of 1 PagelD#:34

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No

Date May 27,2020

ED CV 20-914-DMG (KKs)

Page 1 of 1

Title Jasper Crook v. Ricardo Aguilar, et al.
' Present: The Honorable

JS-6

DOLLY M. GEE, UNITED STATES DISTRICT JUDGE

KANE TIEN
Deputy Clerk

NOT REPORTED
Court Reporter

Attorneys Present for Plaintiffs)
None Present

Attorneys Present for Defendant(s)
None Present

Proceedings: IN CHAMBERS—ORDER DISMISSING THE ACTION FOR LACK OF
SUBJECT MATTER JURISDICTION
On May 1, 2020, the Court ordered Plaintiff Jasper Crook to show cause (“OSC”) why
this action should not be dismissed for lack of subject matter jurisdiction due to failure to show
that complete diversity exists. [Doc. # 8.]
Four days after the Court’s deadline, on May 19, 2020, Plaintiff responded to the OSC.
[Doc. # 9]. In his response, Plaintiff explicitly asserts that he is a citizen of California and that
one of die Defendants, Ricardo Aguilar, is also a citizen of California. Id. Because Plaintiff has
not shown complete diversity, the Court lacks subject matter jurisdiction over this action. See 28
U.S.C. § 1332.
This action therefore is DISMISSED without prejudice.
IT IS SO ORDERED.

CV-90

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk KT

Case 5:20-cv-00914-DMG-KK Documents Filed 07/01/20 Page lot2 PagelD#:51

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No.

Date July 1,2020

ED CV 20-914 DMG (KKx)

Page

Title Jasper Crook v. Ricardo Aguilar, et al.
Present: The Honorable

1 of 2

DOLLY M. GEE, UNITED STATES DISTRICT JUDGE

KANE TIEN
Deputy Clerk

NOT REPORTED
Court Reporter

Attorneys Present for Plaintiff(s)
None Present

Attorneys Present for Defendants)
None Present

Proceedings: IN CHAMBERS—ORDER RE PLAINTIFF’S MOTION FOR
RECONSIDERATION [13]
On May 27, 2020, the Court dismissed without prejudice this action for lack of subject
matter jurisdiction due to lack of complete diversity of citizenship. See 28 U.S.C. § 1332. On
June 10, 2020, pro se Plaintiff Jasper Crook filed a “Motion for Reconsideration” that asserts
several arguments for the Court to assert subject matter jurisdiction or, in the alternative, requests
leave to amend his Complaint to drop Defendant Ricardo Aguilar from the suit and assert his
claims only against Defendant MAPRE Insurance. [Doc. # 13.]
Rule 60(b) provides that a court may relieve a party from any prior order or decision for a
number of reasons including, but not limited to, (1) mistake, inadvertence, surprise, or excusable
neglect, (2) newly discovered evidence that could not have been discovered with reasonable
diligence, and (3) any other reason that justifies relief. Fed. R. Civ. P. 60(b)(1), (6). Under
Local Rule 7-18, a party may seek reconsideration only on the grounds of (1) a material
difference in fact or law from that presented to the court before the decision that in the exercise
of reasonable diligence could not have been known to the party moving for reconsideration at the
time of the decision; (2) the emergence of new material facts or a change of law occurring after
the time of the decision; or (3) a manifest showing of a failure to consider material facts
presented to the court before the decision. C.D. Cal. L. R. 7-18. A party may not move for
reconsideration by repeating arguments previously made to the court.
Plaintiff does not explain why he did not raise his arguments for subject matter
jurisdiction in his Response to the Court’s Order to Show Cause (“OSC”) instead of raising them
for the first time in a Motion for Reconsideration. In any event, his argument that only minimal
diversity is required is unavailing, as 28 U.S.C. section 1332 requires complete diversity.
Plaintiff also cites an Alaska state court case for Alaska state court jurisdictional requirements,
which are not the same as or pertinent to federal court jurisdictional requirements. See Mot. at 6
[Doc. # 13]. Finally, that a state cannot restrict the federal court’s equity jurisdiction is not
relevant to whether Plaintiff has established complete diversity under 28 U.S.C. section 1332.
CV-90

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk KT

Case 5:20-cv-00914-DMG-KK Document 14 Filed 07/01/20 Page 2 of 2 PagelD#:52

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No.

ED CV 20-914 PMG (KKx)

Tide Jasper Crook v. Ricardo Aguilar, et al.

'mate; July L 2020
: Page

2 of 2

Having considered Plaintiffs arguments, the Court finds no legal reason to reconsider its Order
dismissing the case without prejudice for lack of subject matter jurisdiction.
Plaintiffs request for leave to amend his Complaint is also insufficiently supported. The
Supreme Court has noted that Rule 21 provides courts with the authority ‘“to allow a dispensable
nondiverse party to be dropped at any time, even after judgment has been rendered.’” Grupo
Dataflux v. Atlas Glob. Grp., L.P., 541 U.S. 567, 572-73 (2004) (quoting Newman-Green, Inc.
v. Alfonzo-Larrain, 490 U.S. 826, 832 (1989)). But Plaintiff has not shown that Aguilar is a
“dispensable nondiverse party.” Id. Dismissal of dispensable nondiverse parties should be
exercised sparingly after careful consideration of whether such a dismissal will prejudice any of
the parties in the litigation. Newman-Green, Inc. v. Alfonzo-Larrain, 490 U.S. 826, 837-38
(1989). Plaintiffs Motion for Reconsideration does not address any of the facts or factors
relevant to a finding that Aguilar is a dispensable party. See Nam Soon Jeon v. Island Colony
Partners, 892 F. Supp. 2d 1234, 1240 (D. Haw. 2012) (describing and applying factors under
Rule 19(b)). Based on the Complaint’s allegations, it appears that Aguilar, who is the holder of
an insurance policy with MAPRE Insurance and the person involved in the vehicle collision
which gave rise to the damages at issue in this case, is not likely to be a dispensable party.
Accordingly, the Court DENIES Plaintiffs Motion for Reconsideration and request for
leave to amend his Complaint. This Order is without prejudice to Plaintiff refiling his action in
state court.
IT IS SO ORDERED.

CV-90

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk KT

